OIG Audit Report GR-60-09-003

Follow Up Audit on the Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by the City and County of San Francisco, California

Audit Report GR-60-09-003


October 2008
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the Inspector General, Audit Division, previously completed an audit of  the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to the City and County of San Francisco (San Francisco), California, and issued a final report in November 2007. The objective of our prior audit was to determine if the SWBPI reimbursements received by San Francisco were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 The November 2007 audit found that San Francisco was unable to provide a listing of cases submitted for reimbursements because the SWBPI submissions were not based on specific cases. Further, the cases included on the final master list created by San Francisco, although not representative of the actual SWBPI submissions, were ineligible under the SWBPI guidelines. Specifically, based on the final master list, San Francisco received unallowable reimbursements totaling $5,414,895 for the 2,241 cases submitted because they were not federally initiated. Subsequent to our prior audit, San Francisco requested and received an additional $ 336,254 in unallowable SWBPI reimbursement, resulting in total unallowable SWBPI reimbursements of $5,751,149.1
 To remedy the $5,751,149 in unallowable SWBPI reimbursements, San Francisco repaid $2,700,000 on February 28, 2008. In addition, San Francisco contacted federal law enforcement agencies to identify any federally initiated cases that were subsequently referred to San Francisco for prosecution and submitted a list of cases and supporting documentation that it believed met the SWBPI requirements. San Francisco planned to substitute these cases for the unallowable cases submitted previously and reduce the remaining funds owed by the allowable SWBPI reimbursement amounts resulting from the subsequent cases. The objective of our audit was to determine if the SWBPI reimbursements claimed by San Francisco for the SWBPI cases identified subsequent to our original audit were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 San Francisco provided a total of 134 cases that it believed were eligible for maximum SWBPI reimbursements totaling $1,170,000 under the “both” prosecution and pretrial detention reimbursement category. However, San Francisco acknowledged that the OIG would apply the quarterly pro-rata rates to the maximum reimbursement for all cases determined to be eligible. We found that San Francisco was able to provide support for allowable SWBPI reimbursements totaling $522,957. As a result, San Francisco must repay the remaining $2,528,192 in unallowable SWBPI reimbursements as shown in the following table. 
 CALCULATION OF UNALLOWABLE SWBPI FUNDS 
OWED BY SAN FRANCISCO 


 Unallowable SWBPI Reimbursements Identified in the November 2007 Prior Audit 
 $5,414,895 


 Unallowable SWBPI Reimbursements Received Subsequent to the November 2007 Prior Audit 
 336,254


 Total Unallowable SWBPI Reimbursements 
 $5,751,149 


 Less: Unallowable SWBPI Reimbursements Repaid in February 2008 
 ($2,700,000) 


 Less: Allowable SWBPI Reimbursements Identified for subsequent SWBPI Cases Submitted 
 (   522,957)


 Total Remaining Unallowable SWBPI Funds 
 $2,528,192 


 These issues are discussed in detail in the Findings and Recommendations section of the report. Our audit Objectives, Scope, and Methodology appear in Appendix I. 


 

Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs. 





 




Return to OIG Home Page